Office of Inspector General
Audit Report


          WATER


Kansas National Pollutant Discharge
   Elimination System Program


Report No. E1HWF7-07-0022-8100089


          March 31, 1998
Inspector General Division   Central Audit Division
 Conducting the Audit:       Kansas City, Kansas


Region Covered:              Region 7


Program Office Involved:     Water, Wetlands, and Pesticides Division
                                           March 31, 1998


MEMORANDUM

SUBJECT:       Kansas National Pollutant Discharge Elimination System Program
               Audit Report E1HWF7-07-0022-8100089

FROM:          Bennie S. Salem
               Divisional Inspector General

TO:            Dennis Grams
               Regional Administrator
               Region 7

        We have completed our audit of Kansas’ National Pollutant Discharge Elimination System
Program. This report includes recommendations that Region 7 direct Kansas to establish and
implement an action plan for eliminating the backlog of expired National Pollutant Discharge
Elimination System permits. Region 7 recently notified Kansas of the Region’s approval (and
disapproval of specific provisions) of the Kansas 1994 water quality standards and began
discussions with Kansas to address the recommendations within the fiscal 1999 program grant
process.

Action Required

        In accordance with Environmental Protection Agency (EPA) Order 2750, you, as the
action official, are required to provide this office a written response to the audit report within 90
days of the final audit report date. For corrective actions planned, but not completed by the
response date, reference to specific milestone dates will assist in deciding whether to close this
report.

        We appreciate the cooperation your staff provided throughout the audit. We especially
appreciate the program staff's assistance and timely response during the audit. The staff exhibited
a genuine interest in working with us to improve the water quality program. The staff recognized
from the beginning that this audit would provide the basis for similar audits of other states, and
worked closely with us to ensure we had a comprehensive understanding of Region 7's water
quality program. The staff's efforts helped add value to this audit and to our planned national
program audits.
        This audit report contains findings that the Office of Inspector General (OIG) has
identified and corrective actions OIG recommends. This audit report represents the opinion of
OIG, and the findings in this audit report do not necessarily represent the final EPA position.
Final determinations on matters in this audit report will be made by EPA managers in accordance
with established EPA audit resolution procedures.

       We have no objections to the release of this report to the public.

       If you have any questions, please call me at 551-7831 or Connie Walton, Audit Manager,
at 551-7007. Please refer to report number E1HWF7-07-0022-8100089 on any correspondence.
                                                                               Kansas National Pollutant Discharge
                                                                               Elimination System Program

                                      TABLE OF CONTENTS



PURPOSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

PRIOR AUDIT COVERAGE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

RESULTS IN BRIEF . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

TIMELY ISSUANCE OF PERMITS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

OVERSIGHT OF KANSAS PERMITS PROGRAM . . . . . . . . . . . . . . . . . . . . . . . 8

OPPORTUNITY FOR ADDITIONAL ENVIRONMENTAL DATA . . . . . . . . . . . 9

RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

EXHIBIT

          1 - SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

APPENDICES

          I - EPA RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

          II - KANSAS RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

          III - DISTRIBUTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22




                                                                                    E1HWF7-07-0022-8100089
                                                         i
                                        Kansas National Pollutant Discharge
                                        Elimination System Program

PURPOSE      The Clean Water Act required the Environmental Protection
             Agency (EPA) to control point sources of water pollution
             through the National Pollution Discharge Elimination
             System, hereafter referred to as the “permits” program. The
             permits program is EPA’s primary regulatory tool for
             controlling pollutant discharges into surface waters. We
             selected the Kansas permits program for audit because
             Office of Water personnel suggested several states,
             including Kansas, where audits could identify best practices
             and needed improvements in states’ permits programs. Our
             specific objectives were to determine if:

                    •       Kansas implemented procedures to ensure
                            complete and timely permits were issued for
                            dischargers;

                    •       Kansas restricted waste dischargers based on
                            effluent limitations and established
                            monitoring requirements for each pollutant;

                    •       Kansas monitored permit conditions,
                            including effluent limitations and compliance
                            schedules;

                    •       Kansas permitted stormwater, combined
                            sewer, sludge, and pretreatment program
                            activities; and

                    •       Region 7 monitored Kansas’ implementation
                            of the permits program and established
                            controls to ensure that water quality goals
                            are met.



BACKGROUND   The Federal Water Pollution Control Act amendments of
             1972 included the permits program as the centerpiece of the
             national water pollution control efforts. Congress
             reauthorized and renamed the Act the Clean Water Act in
             1977 and amended it in 1987. Permits limit the pollutants

                                           E1HWF7-07-0022-8100089
                        1
                            Kansas National Pollutant Discharge
                            Elimination System Program

that a facility may discharge into United States waters
through a specific point, such as a pipe. The Code of
Federal Regulations (CFR) Title 40, Parts 122 to 133 and
Parts 401 to 503 contain EPA regulations for implementing
and administering the permits program.

EPA classifies permitted facilities primarily as municipal and
non-municipal. Municipal facilities typically treat municipal
sewage or industrial wastes to acceptable limits and
discharge the treated wastes into United States waters.
Non-municipal facilities include industrial facilities and all
other facilities that discharge pollutants directly into United
States waters rather than through municipal facilities.

EPA also classifies facilities as either major or minor. EPA
regulations define major municipal facilities as those having
a design or actual flow of one million gallons or greater per
day. Major non-municipal facilities are determined based on
specific ratings criteria developed by EPA and states.

Kansas had 56 major and 776 minor facilities in August
1997. Of the 56 major facilities, 40 were municipal and 16
were non-municipal.

The permits program originally focused on the municipal
and non-municipal facilities. As the program matured and
municipal and non-municipal facilities’ discharges were
permitted, the focus of the permits program expanded to
regulate other pollution sources. These newer programs
include pretreatment, stormwater, combined sewer, and
sludge programs.

The pretreatment program regulates wastewater from
industrial facilities that discharge to municipal facilities and
is primarily implemented directly by the municipal facility
receiving industrial wastes. The stormwater program
regulates large volumes of water that can result from
surface runoff, street washing, rain, and snowmelt that drain
to receiving waters. The combined sewer program was
designed to regulate untreated overflows into receiving

                                E1HWF7-07-0022-8100089
           2
                                         Kansas National Pollutant Discharge
                                         Elimination System Program

              waters from municipalities with combined sewer systems.
              The sludge program regulates the use and disposal of the
              semisolid residue from municipal facilities.

              In addition to pollutant discharge limits, permits contain
              requirements to monitor and report on pollutant discharges.
              States enter major facilities’ discharge monitoring data into
              the Permit Compliance System. The Permit Compliance
              System is a centralized repository of information used to
              determine reductions in pollutants discharged to the United
              States waters.

              Region 7 delegated its authority to administer the Kansas
              permits program to the Kansas Department of Health and
              Environment. The Kansas Department of Health and
              Environment is responsible for protecting and maintaining
              Kansas’ water quality. The Division of Environment within
              the Kansas Department of Health and Environment is
              responsible for implementing Kansas’ permits program. In
              fiscal 1998, EPA provided $850,000 in grants to the Kansas
              Department of Health and Environment for Kansas’ water
              quality program which includes the permits program.



SCOPE AND     We performed our audit in accordance with Government
METHODOLOGY   Auditing Standards (1994 revision) issued by the
              Comptroller General of the United States as they apply to
              program audits. Our review included tests of the program
              records and other auditing procedures we considered
              necessary. We conducted our fieldwork from June 1997
              through January 1998. We performed our fieldwork at
              Region 7 in Kansas City, Kansas, and at Kansas Department
              of Health and Environment in Topeka, Kansas.

              See Exhibit 1 for scope and methodology details.




                                             E1HWF7-07-0022-8100089
                        3
                                              Kansas National Pollutant Discharge
                                              Elimination System Program

PRIOR AUDIT        The Office of Inspector General issued an audit report
COVERAGE           entitled Region 7's Efforts to Address Water Pollution
                   From Livestock Waste (E1HWF6-07-0017-6100312),dated
                   September 30, 1996, and reported that a more structured
                   approach was needed to address livestock waste. The
                   United States General Accounting Office has not issued
                   recent reports directly related to the Kansas permits
                   program.



RESULTS IN BRIEF   When Kansas issued permits, it established permit limits and
                   monitoring requirements, and inspected permittee
                   operations in accordance with EPA regulations. Further,
                   Kansas permitted stormwater, combined sewer, and
                   pretreatment program activities in accordance with EPA
                   regulations. However, Kansas did not reissue expired
                   permits timely. Kansas’ failure to submit expired permits
                   for Region 7 review limited the Region’s options to ensure
                   Kansas’ permits program controlled pollutant discharges
                   into Kansas’ waters. As a result, the permittees were
                   allowed to discharge pollutants at levels that could
                   adversely affect aquatic life and human health.



TIMELY ISSUANCE    Kansas did not reissue 22 percent of its expired permits in
OF PERMITS         the required timeframe. Federal regulations require the
                   periodic review of permits to ensure that changed
                   conditions and advancements in science are considered in
                   establishing permit limits. As of August 1997, Kansas had
                   832 permits, of which 182 were expired for periods up to 6
                   years. Kansas officials said they had not reissued these
                   permits due to their change in permitting approach, state
                   legislative mandates, and Region 7's failure to approve
                   Kansas’ 1994 water quality standards. As these facilities
                   continue to operate under their expired permits, they may
                   discharge pollutants at levels that could adversely affect
                   aquatic life and human health.


                                                 E1HWF7-07-0022-8100089
                             4
                            Kansas National Pollutant Discharge
                            Elimination System Program

CFR part 122.46, Duration of permits, requires that the
duration of permits not exceed 5 years. CFR part 122.6,
Continuation of expiring permit, allows an expired permit
to remain in effect until a new permit is issued.

States are required to develop water quality standards that
serve as the regulatory basis for pollutant discharge limits in
the permits program. Section 303 of the Clean Water Act,
Water Quality Standards and Implementation Plans,
requires states to review their water quality standards once
every 3 years and obtain EPA approval for the standards.
EPA is required to promulgate water quality standards for
the state if EPA disapproves a state’s water quality
standards. CFR part 131.21, EPA review and approval of
water quality standards, provides that a state’s water
quality standards remain in effect unless EPA promulgates
standards for the state.

The status of Kansas permits, as of August 1997, by major
and minor facilities are shown in Table 1.

                 Table 1: Expired Permits

                                Number of
   Type of       Number of       Expired         Percent
   Facility       Permits        Permits         Expired
    Major             56             26              46
    Minor            776            156              20
    TOTAL            832            182              22

We analyzed the backlog of the 26 expired major permits
and found 2 were subsequently issued. Of the remaining 24
permits, 6 were attributed to Kansas’ change in permitting
approach, 17 to changes in the ammonia water quality
standard, and 1 to changes in the arsenic water quality
standard.



                                E1HWF7-07-0022-8100089
            5
                                                     Kansas National Pollutant Discharge
                                                     Elimination System Program

Change in Permitting      In 1994, Kansas changed its permitting approach to issue all
Approach                  permits in a geographical location, or basin, at the same
                          time. This approach allows Kansas to more effectively
                          develop permit limits for all dischargers in the same basin,
                          using water quality data from the same point in time. Six of
                          the major expired permits were located in the Kansas Lower
                          Republican Basin. This basin is Kansas’ current priority for
                          implementing the new permitting approach. Thus, we
                          believe it is reasonable that the permits were temporarily
                          allowed to expire to switch all permits in the Kansas Lower
                          Republican Basin to the same permit cycle.

Change in Ammonia Water   Kansas did not issue 17 major permits pending resolution of
Quality Standard          differences between Kansas and Region 7 over ammonia
                          water quality standards. Kansas adopted more restrictive
                          ammonia water quality criteria in 1994. However, Kansas
                          officials said they could not issue the permits using the more
                          restrictive 1994 ammonia limits because Region 7 had not
                          approved Kansas’ 1994 water quality standards. In 1994,
                          Kansas adopted an ammonia water quality standard that was
                          compatible with EPA’s 1985 ammonia guidance. Region 7
                          was supportive of Kansas’ 1994 ammonia standard and
                          complimented the State on its revision. However, Region 7
                          did not formally approve Kansas’ 1994 water quality
                          standards due to concerns with pollutants other than
                          ammonia.

                          Permittee complaints and EPA’s lack of formal response to
                          the 1994 Kansas water quality standards led to Kansas
                          House Bill 2368, dated May 1, 1997. The House Bill
                          provided permittees their choice of ammonia permit limits
                          based on Kansas’ 1994 standard or interim limits based on
                          the less restrictive 1987 standard, pending a special
                          commission review of Kansas surface water quality
                          standards. The House Bill cited uncertainty over the science
                          used to develop Kansas’ 1994 ammonia standard and the
                          social and economic costs to meet the 1994 standard.




                                                         E1HWF7-07-0022-8100089
                                     6
                                                     Kansas National Pollutant Discharge
                                                     Elimination System Program

                          The uncertainty over the science rose from the types of
                          aquatic life used in EPA’s testing. EPA acknowledged that
                          the science that supported its 1985 ammonia guidance was
                          based on aquatic life that may not be indigenous to all
                          states. However, Kansas developed its 1994 ammonia
                          standards based on its own studies using aquatic life
                          indigenous to the State.

                          The House Bill also cited Kansas’ concern over the social
                          and economic cost to meet the 1994 ammonia standard.
                          Kansas officials identified 5 of the 17 facilities that would
                          need plant upgrades to meet the 1994 ammonia standard.
                          Kansas officials thought the remaining 12 major facilities
                          would not require upgrades; however, they believed the
                          permittees would not agree to ammonia permit limits. As a
                          result, Kansas did not issue the 17 permits and stopped the
                          permits issuance process prior to submitting the permits for
                          public comment and Region 7 review. These permittees
                          continue to operate under their less restrictive expired
                          permits.

                          Kansas did issue several major facility permits that limited
                          ammonia based on the 1994 ammonia water quality
                          standard. During 1997, Kansas issued permits containing
                          ammonia limits based on its 1994 ammonia water quality
                          standard to two major municipal wastewater treatment
                          plants. Kansas officials said that the facilities needed to
                          upgrade the treatment plants for reasons other than
                          ammonia; however, Kansas developed the permits limits
                          using the 1994 ammonia standard as the basis of design for
                          the new treatment plant.

Change in Arsenic Water   Kansas did not issue one major permit pending resolution of
Quality Standard          differences between Kansas and Region 7 over the arsenic
                          water quality standards. EPA promulgated water quality
                          standards for Kansas in 1991 which included standards for
                          arsenic. Kansas did not agree with the national promulgated
                          arsenic standards, and adopted a less restrictive standard in
                          1994. Region 7 had concerns whether Kansas’ 1994 arsenic
                          standard was protective of human health and did not

                                                         E1HWF7-07-0022-8100089
                                     7
                                             Kansas National Pollutant Discharge
                                             Elimination System Program

                 approve the standard. Kansas and Region 7 are still in
                 negotiations over this water quality standard. As the new
                 permit had not been issued, the permittee is operating under
                 the expired permit, which includes arsenic limits that are not
                 as strict as current EPA science. As a result, this permittee
                 may be discharging arsenic at levels unsafe for human
                 health.



OVERSIGHT OF     Kansas’ failure to submit expired permits for Region 7
KANSAS PERMITS   review limited the Region’s oversight options to ensure that
PROGRAM          the Kansas permits program appropriately controlled
                 pollutant discharges in Kansas waters. As Kansas did not
                 submit the revised permits to Region 7, the Region could
                 not review and approve or comment on the permits.

                 CFR part 123.43 Transmission of information to EPA,
                 requires that states submit draft permits to EPA for review
                 at the same time the permit is submitted for public notice.
                 The regulations provide that EPA may only issue a permit in
                 a delegated state if objections are raised and not resolved.

                 Region 7's failure to approve the Kansas 1994 water quality
                 standards contributed to the Kansas permits backlog. The
                 Region recognized its need to approve state standards as a
                 fiscal 1997 Federal Managers’ Financial Integrity Act area
                 of concern, and committed in its fiscal 1998/1999 regional
                 management agreement with Office of Water to complete
                 timely approval actions.

                 Region 7 and Kansas also recognized Kansas’ permits
                 backlog as a concern in 1996, and established the issuance
                 of expired permits as a high priority in Kansas’ fiscal 1997
                 annual work plan. The annual work plan identifies mutual
                 expectations as well as the State’s responsibilities and
                 priorities for the upcoming year. However, the Region did
                 not exercise its option of withholding grant funds for
                 Kansas’ failure to issue expired permits.


                                                E1HWF7-07-0022-8100089
                            8
                                              Kansas National Pollutant Discharge
                                              Elimination System Program

OPPORTUNITY FOR   Region 7 developed a software program for Kansas that
ADDITIONAL        may be used to improve the quality of environmental data
ENVIRONMENTAL     used to measure the success of the permits program. EPA
DATA              does not require states to record minor permittee discharge
                  monitoring data in the Permit Compliance System as the
                  process is time-consuming and expensive; however, CFR
                  part 123.45 Noncompliance and program reporting by the
                  Director, does require states to report on their reviews,
                  compliance issues, and enforcement actions for minor
                  permits. Region 7 developed a software program that
                  electronically transfers discharge monitoring data from
                  Kansas’ 56 major facilities to the Permit Compliance
                  System. Kansas could use the program to record discharge
                  monitoring data for its 776 minor facilities, as the program
                  eliminates the time and expense barriers to recording minor
                  permittee monitoring data.

                  EPA uses the discharge monitoring data as a surrogate
                  environmental indicator of the success of the permits
                  program. This environmental indicator may be significantly
                  misstated in Kansas as 93 percent of the permitted facilities
                  in Kansas are minors.



RECOMMENDATIONS   We recommend the Regional Administrator direct the
                  Water, Wetlands, and Pesticides Division to:

                         1.       Encourage Kansas to submit all expired
                                  permits for major facilities for public
                                  comment and Region 7 review.

                         2.       Direct Kansas to establish an action plan for
                                  eliminating the backlog of expired permits.

                         3.       Work with Kansas to assess the effect of its
                                  permits backlog in developing its water
                                  quality monitoring plan.



                                                 E1HWF7-07-0022-8100089
                              9
                                                 Kansas National Pollutant Discharge
                                                 Elimination System Program

                            4.        Develop an action plan for the timely review
                                      of and prompt action on state water quality
                                      standards.

                            5.        Negotiate with Kansas to provide data on
                                      minor dischargers in the Permit Compliance
                                      System using the newly developed software.



AUDITEE COMMENTS     Region 7 generally agreed with the findings and
AND OIG EVALUATION   recommendations. Kansas Department of Health and
                     Environment agreed that the report was substantially
                     accurate and factual. Both Region 7 and Kansas provided
                     comments to clarify portions of the report, and we have
                     incorporated these comments and modified the report as
                     appropriate.

                     Both Region 7 and Kansas indicated that they had begun
                     taking corrective actions through discussion in the fiscal
                     1999 program grant process. Further, Region 7 notified
                     Kansas of the Region’s approval (and disapproval of
                     specific provisions) of Kansas’ water quality standards.

                     Both Region 7 and Kansas emphasized that the Results in
                     Brief conclusion, “. . . permittees were allowed to discharge
                     pollutants at levels that could adversely affect aquatic life
                     and human health” acknowledges the uncertain results of
                     the expired permits. However, neither Region 7 nor Kansas
                     was aware of any evidence of actual impacts to aquatic life
                     or human health from expired permits. Kansas noted that
                     they would act swiftly to minimize such risk if they were
                     aware of factual instances where human life was at imminent
                     risk.

                     Kansas felt that it would not be cost beneficial to provide
                     data on minor dischargers in the Permit Compliance System
                     using the Region 7 developed software. As EPA uses the
                     discharge monitoring data as a surrogate environmental


                                                     E1HWF7-07-0022-8100089
                                 10
                          Kansas National Pollutant Discharge
                          Elimination System Program

indicator of the success of the permits program, we
recommend that Kansas consider prioritizing the minor
dischargers and use the software program as they have
resources.




                             E1HWF7-07-0022-8100089
         11
                                                                 Kansas National Pollutant Discharge
                                                                 Elimination System Program

                                                                                         Exhibit 1
                               SCOPE AND METHODOLOGY


We reviewed Kansas’ internal controls over the permits program. We analyzed internal controls
to assure compliance with federal statutory and regulatory criteria and with the State’s policies
and procedures. We determined whether Region 7's Federal Managers’ Financial Integrity Act
reports disclosed any material weaknesses applicable to the audit. Our audit disclosed several
areas needing improvement that are discussed in the report.

We focused on the 832 permits Kansas issued to municipal and non-municipal facilities to limit
pollution discharges. The review did not include permits for confined animal feeding operations,
as these are zero discharging permits and were addressed in a prior audit. Further, the review did
not include Kansas supplement permits are not part of the National Pollution Discharge
Elimination System.

To determine whether Kansas procedures ensured complete and timely permits were issued and
whether permit limits were appropriately calculated and monitored, we interviewed Kansas and
Region 7 officials to obtain an understanding of their procedures for administering the permits
program. We compared permit procedures to applicable laws, regulations, and documentation
provided by Region 7 and Kansas.

We selected a judgmental sample of 10 of Kansas’ 832 permits to determine if Kansas
implemented procedures to ensure complete permits were issued. The 10 permits were for major
and minor facilities located in areas of impaired water. We compared the permit information to
the requirements in CFR parts 122 to 133, and the Permit Writers Manual (EPA-833-B-96-003),
dated December 1996. We analyzed Kansas’ automated permit data to evaluate the timeliness of
permits issued.

To determine whether Kansas monitored permit conditions, including effluent limitations and
compliance schedules, we reviewed Kansas’ inventory of inspections and reviewed the contents of
inspection reports. We obtained Kansas’ procedures for monitoring discharges and compared
monthly discharge monitoring report data with permit limits to determine if permittees complied
with effluent limits.

To determine whether Kansas effectively permitted stormwater, combined sewers, sludge, and
pretreatment, we interviewed Kansas and Region 7 personnel to determine how they ensured
programs operated in compliance with EPA regulations. For stormwater, we reviewed the basic
permit to determine if the required elements were included and if stormwater permits were issued


                                                                    E1HWF7-07-0022-8100089
                                                12
                                                               Kansas National Pollutant Discharge
                                                               Elimination System Program

for construction sites. We reviewed the three Kansas combined sewer permits to determine if the
permits included the required controls and long range plans. To evaluate the Kansas sludge
program, we reviewed three annual reports and sludge procedures for compliance with sludge
regulations. Also, we reviewed controls over the 15 approved pretreatment programs and
determined if municipal facilities’ permits included pretreatment requirements.

To evaluate Region 7 monitoring of Kansas implementation of the permits program, we
interviewed Region 7 personnel to determine how they evaluated the Kansas permits program.
We reviewed management agreements to determine required performance. We reviewed Kansas
work plans to evaluate activities and performance reporting. We also reviewed correspondence
between Region 7 and Kansas to identify issues or areas of interest.




                                                                  E1HWF7-07-0022-8100089
                                              13
                   Kansas National Pollutant Discharge
                   Elimination System Program

                                         Appendix I
AUDITEE RESPONSE




  TO BE ADDED.




                      E1HWF7-07-0022-8100089
       14
                                                               Kansas National Pollutant Discharge
                                                               Elimination System Program

                                                                                   Appendix III
                                      DISTRIBUTION



Office of Inspector General

       Inspector General (2410)
       Deputy Assistant Inspector General for Internal Audits (2421)
       Headquarters Audit Liaison (2421)
       Divisional Inspectors General for Audit

EPA Headquarters Office

       Assistant Administrator for Water (4101)
       Agency Followup Official (2710)
       Agency Followup Coordinator (3304)
       Associate Administrator for Congressional and Legislative Affairs (1301)
       Associate Administrator for Communications, Education, and Public Affairs (1701)
       Associate Administrator for Regional Operations and State/Local Relations (1501)
       Headquarters Library (3401)

EPA Region 7

       Director, Water, Wetlands, and Pesticides Division
       Director, Office of External Programs
       Audit Followup Coordinator

Regional Offices

       Regional Administrators

Kansas Division of Environment

       Director
       Director, Bureau of Water
       Chief, Water Technical Services Section




                                                                  E1HWF7-07-0022-8100089
                                                 22
